       Agreement Number: 12200RJ003

       Cooperative Agreement Recipient: Garden Island Resource Conservation & 

       Development 

       Amount of Award: $ 100,000 

       Purpose: To conduct native habitat restoration on Lehua Island, a small, 

       uninhabited islet off Kaua`i. 


       Agreement Number: 12200RJ002 

       Cooperative Agreement Recipient: Moloka`i Land Trust

       Amount of Award: $ 50,000 

       Purpose: Referred to as the Mokio Coastal Strand Restoration, the purpose is to 

       conduct ecological restoration on twenty acres of coastal habitat on Moloka`i, 

       Hawai`i. 


Findings

        Overall, the AI&E Office is concerned by the lack of competition in the award of
financial assistance, poor documentation, and inadequate training of staff responsible for grants
administration. The evaluation is ongoing; additional detailed findings will be reported to FWS
as we learn more.

        Unlike many other grant/agreement files, the AI&E Office found that the Recovery Act
files contained complete sets of the required signed forms and initial project documentation.
There was little evidence of monitoring, but this is understandable as the related projects were in
the early stages.

       The AI&E Office did note specific areas of concern:

       1.	 PIFWO staff report that they were directed by the Region to issue all Recovery Act
           awards as cooperative agreements, regardless of the level of substantial involvement
           as defined in 505 DM 2.

       2.	 Use of agreement templates resulted in awards that cite inaccurate payment
           provisions and incorrect authorities. Although this was initially identified during our
           review of the three PIFWO Recovery Act files, follow-up work identified that the
           document was distributed by the Service nationally.

       3.	 The selection process for the Recovery Act projects did not appear to be “open and
           fair.” Field staff, who were in direct contact and continually involved with
           prospective cooperators, have direct influence in the decision-making process. The
           standard practice in PIFWO seems to be direct outreach to preferred providers
           whenever new funding is available — a practice used for the Recovery Act projects.
           The Office interviewed other conservation partners, who stated they were never
           contacted by PIFWO field staff as to the availability of Recovery Act funding.
           Ultimately, there is no assurance that the cooperative agreements were awarded
           impartially or with the transparency intended by the Recovery Act.


                                                                                                     2
    
        4.	 There is no assurance that there was an adequate basis for costs for proposed project
            budgets. With a lack of cost analysis up-front, it becomes all the more imperative that
            reimbursement requests and supporting documentation be scrutinized for adherence
            to applicable cost principles.

Recommendations

      Recommendations will be included in the Final Evaluation Report, forthcoming from our
Western Region AI&E Office.

cc: 	   Deputy Secretary, Department of the Interior
        Senior Advisor to the Secretary for Economic Recovery and Stimulus
        Assistant Secretary – Policy, Management, and Budget
        Director, Office of Acquisition and Property Management
        Acting Director, Office of Financial Management
        Departmental GAO/OIG Audit Liaison
        Audit Liaison, Office of the Secretary
        Audit Liaison, U. S. Fish and Wildlife Service
        Bureau Procurement Chief, U. S. Fish and Wildlife Service
        Recovery Act Coordinator, U. S. Fish and Wildlife Service
     




                                                                                                  3
     
          



                                                     


                       Report Fraud, Waste, and 
  
                          
                           Mismanagement


                                                       
                                 Fraud, waste, and mismanagement in
                             government concerns  everyone: Office of
                                 Inspector General staff, Departmental
                         employees, and the general public. We actively
                         solicit allegations
                                                of any inefficient and wasteful
                                  practices, fraud, and abuse related to
                              
                           Departmental       or Insular Area programs and
                          operations. You can report allegations to  us in
                                               several  ways.
                                                     
                                                         
                                                     
                                                     
                  By Mail:  	          U.S. Department of the Interior  
                                       Office of Inspector General  
                                       Mail Stop 4428 MIB  
                                       1849 C  Street, NW
                                       Washington, D.C. 20240  
                   
                  By Phone :  	        24‐Hour Toll Free	                800‐ 424‐5081   
                                       Washington Metro Area             703‐ 487‐5435   
                   
                           	  
                  By Fax:	             703‐487‐5402  
                   
                  By Internet:		       www. doioig.gov/hotline
               




                                                                                             
